HHS/OIG, Audit -"Audit of Payments for Medicaid Services to Deceased Recipients - October 1, 1998 Through September 30, 2000 - Michigan Department of Community Health,"(A-05-01-00103)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Payments for Medicaid Services to Deceased Recipients - October 1, 1998 Through September 30, 2000 - Michigan
Department of Community Health," (A-05-01-00103)
October 22, 2003
Complete
Text of Report is available in PDF format (174 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the amount of Medicaid overpayments resulting from payments to providers
for medical services provided after the recipients’ death.  We found that for the period October 1, 1998 through
September 30, 2000, the Michigan Department of Community Health did not identify all payments for medical services provided
after death.  Based on the results of a statistical sample, we estimate that unallowable payments of approximately
$294,500 (Federal share $161,000) were not recovered.  In addition, the State agency did not credit the Federal Government
for payments that it had identified as unallowable.  The State agency determined that $81,425 (Federal share $45,429)
was not processed for adjustment or collection from the providers.  The State agency agreed with the findings and
recommendations.